Office of the Inspector General
Report of Administrative Inquiry


November 7, 2007

Edwin E. Freeman, LP 3K-C
Van M. Wardlaw, SP 6A-C

INGRAM BARGE COMPANY
OIG FILE NO. 20Z-303



We have completed our update review on the amount of coal being left in Ingram
barges after they are unloaded at the Cumberland Fossil Plant (CUF). Information
provided by Ingram shows that from August 1, 2006, through July 31, 2007, TVA
abandoned roughly 14,000 tons of coal per month. We were advised that coal at CUF
during this time period cost on average about [redacted] per ton plus [redacted] per ton
for transportation, so the total cost for the abandoned coal averaged roughly $556,500
per month, or $6.678 million annually. We continue to believe TVA should promptly
address the merits of seeking to unload this coal rather than abandoning it to Ingram.

Background

Under TVA’s contract with Ingram, coal left in Ingram barges at CUF is considered
abandoned and can be salvaged by Ingram. We understand Ingram cleans the barges
and salvages the coal when it is operationally efficient to do so.

By memorandum dated October 13, 2005, we advised Fuel Supply of the results of our
review into the amount of coal being left in Ingram barges after they were unloaded at
TVA facilties. We noted that more coal was left in barges at CUF than any other facility
and we estimated the cost for abandoned CUF coal at about $164,000 per month.

TVA subsequently advised us the amount of coal left in the barges averaged about
58 tons per barge and it would not be cost effective to clean out the barges. This
calculation was based on (1) a bid from one company of approximately $480-550 to
clean out each barge and (2) $20 per ton for the cost of coal.
Edwin E. Freeman
Van M. Wardlaw
Page 2
November 7, 2007



Findings

We continued to work with management on this issue after our October 2005 report
and management agreed to conduct a further analysis. We are providing this report to
further that effort.

Our investigation revealed the following regarding the coal abandoned in the Ingram
barges at CUF.

   •   Ingram provided a spreadsheet listing barges that between August 1, 2006, and
       July 31, 2007, were unloaded by TVA at CUF, returned to Ingram containing
       abandoned coal, and then cleaned at Ingram’s facility. Ingram advised the
       tonnage amounts shown were visual estimates made by the cleaning crew at its
       facility. Ingram’s spreadsheet listed 1,442 barges and a total of 168,135 tons.
       The coal listed per barge ranged from 1 to 800 tons and averaged roughly
       116 tons.

   •   Fuel Supply advised the number of Ingram barges delivering coal to CUF is
       about 245 per month. The information Ingram provided the OIG indicated that
       Ingram cleans out roughly half of these barges.

   •   Fuel Supply advised the delivered cost of coal has increased since the first
       analysis, making the economic benefit for cleanout more compelling.
       Specifically, the average cost per ton of coal at CUF during the time period
       August 1, 2006, through July 31, 2007, was [redacted] and the cost of
       transportation was [redacted]. Based on the average of 116 tons left in each
       barge that Ingram cleaned out, that equals about [redacted] in coal left on each
       barge at a transportation cost of [redacted]. This average does not include
       barges that Ingram did not clean out; it also does not include any excess cost
       for replacement coal.

   •   In a letter to TVA dated May 26, 2006, Ingram stated the following. In response
       to the Request for Proposals in 2005 for transportation to CUF, they provided
       rate structures for dedicated and non-dedicated equipment and they expressed
       a willingnesss to establish a cleanout operation at CUF if TVA chose non-
       dedicated equipment. Fuel Supply stated, however, that Ingram’s offer for
       dedicated barges was contingent on Ingram being the sole carrier of coal to
       CUF. Fuel Supply further advised that during August 2007 TVA received letters
       from Ingram indicating a willingness to discuss barge cleanout only if Ingram
       was the sole carrier in a longer term contract.
Edwin E. Freeman
Van M. Wardlaw
Page 3
November 7, 2007



   •    TVA management informed us they have been working on a more extensive
        cost analysis on this issue. We were further advised in May 2007 that TVA was
        getting bids on cleaning out the barges and in August 2007 that TVA was
        negotiating with Ingram on dedicated barges and barge cleanout.

Recommendation

Based on the above information, we recommend the Vice President, Fossil Operations,
Region 1, in consultation with the Senior Vice President, Commercial Operations and
Fuels, promptly address the merits of cleaning out barges at CUF before releasing
them to Ingram.

We would appreciate being informed within 30 days of your determination of what
action is appropriate on the basis of our report. In addition, if you decide to take
documented action on the basis of this report, we would appreciate your sending a
copy of the relevant information to this office for our file.

This report has been designated “restricted” in accordance with TVA’s Business
Practice 29, Information Security. Accordingly, it should not be disclosed further
without the prior approval of the Inspector General or his designee. In addition, no
redacted version of this report should be distributed without notification to the Inspector
General of the redactions which have been made.

Our investigation of this matter is closed.




John E. Brennan
Assistant Inspector General
  (Investigations)
ET 4C-K

RPL:ELS:MSW
cc: Timothy J. Czubakowski, CUF 1A-CCT
    Michael D. Davis, LP 5G-C
    Maureen H. Dunn, WT 6A-K
    Roy J. Galyon, LP 5G-C
    Peyton T. Hairston, Jr., WT 7B-K
    John E. Long, Jr., WT 7B-K
    Gary R. McDonald, LP 5G-C
    Jacky D. Preslar, SP 6A-C
    OIG File Nos. 20Z-303 & 13E-398

32253
